  Audit of NARA’s Payments to 

Federal Agencies (Excluding GSA)




  OIG Audit Report No. 14-07



          April 2, 2014

Table of Contents



Executive Summary ........................................................................................ 3


Background ..................................................................................................... 4


Objectives, Scope, Methodology .................................................................... 6


Audit Results................................................................................................... 7


Appendix A – Example of a FPS Invoice..................................................... 11


Appendix B – Example of a GSA Occupancy Agreement........................... 12


Appendix C – Acronyms and Abbreviations................................................ 13


Appendix D – Management’s Response to the Report................................. 14


Appendix E – Report Distribution List......................................................... 15

                                                            OIG Audit Report No. 14-07


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of NARA’s Payments to Federal Agencies (excluding the
General Services Administration). NARA contracts with various Federal agencies for
security related and building specific services using a variety of contract vehicles. In
Fiscal Year (FY) 2012 and FY 2011 NARA paid $7,886,775 and $7,549,262,
respectively, in Rental Payments to Federal Agencies (budget object code 2533). Other
agreements with Federal agencies, including payroll and personal services, from budget
object code 2531and 2611 totaled $5,295,948 in FY 2012.

We reviewed NARA payments to federal agencies, other than GSA, to ensure obligations
were appropriate and NARA received services in accordance with the contracts. Overall
we found, for agreements reviewed, that obligations appeared to be appropriate and
NARA appeared to receive services in accordance with the contract agreements. Our
review identified a few weaknesses in internal controls which require management
attention.

   •	 NARA authorized FPS invoices without verifying that the amounts were 

      consistent with supporting documentation from GSA. 

   •	 NARA authorized payment of building-specific security charges without
      supporting documentation, and without knowing if the correct amount was
      charged.
   •	 The point of contact on one contract agreement could not verify or document the
      individual dates guard services were requested or when these services were
      performed. These factors are necessary to support the authorization to pay the
      invoice.

We made four recommendations which we believe, once implemented, will address the
weaknesses cited in this report.




                                        Page 3
                     National Archives and Records Administration
                                                            OIG Audit Report No. 14-07


Background

Pursuant to the Homeland Security Act of 2002 (HSA), the Federal Protective Services
(FPS) was transferred to the Department of Homeland Security (DHS) from the General
Services Administration (GSA) on March 1, 2003. FPS’s mission is to provide law
enforcement and security to buildings and property owned or occupied by the Federal
government. FPS provides integrated security and law enforcement services to federally
owned and leased buildings.

FPS is funded entirely from fees charged and collected from Federal agencies for its
services. All tenants in GSA space pay a basic security charge. The FY 2012 and FY
2011 basic security charge per rental square foot was $0.74 and $0.66, respectively. This
rate is set by the Office of Management and Budget (OMB), and paid to FPS via a DHS
bill. Basic security includes the following:
     •	 Law enforcement – patrol and response, criminal investigations
     •	 Megacenter alarm monitoring and dispatch services
     •	 Facility Risk Assessment – identification of risks and countermeasures
     •	 Security consultation-new construction, major repair and alteration projects,
         leasing
     •	 Facility Security Committee participation
     •	 Occupant Emergency Plans support
     •	 Crime Prevention and Awareness Training

Building-specific security charges are for items funded by FPS, including Protective
Security Officers and security equipment (X-ray Machines, Magnetometers, Closed –
Circuit Television Systems and Cameras, Intrusion Detection Systems and Duress Alarm
Systems) which service the whole facility.

NARA’s Office of Budget receives monthly Intra-Governmental Payment and Collection
(IPAC) system invoices from FPS for security charges at each GSA owned or leased
facility used by NARA. NARA’s Office of Budget tracks monthly expenses by facility,
identifies significant changes, and works with NARA’s Storage Coordination and
Logistics Staff on significant changes. NARA’s Office of Budget and the Accounting
Policy and Operations Branch (BCA) authorizes the amount to be paid to FPS based on
the FPS bill.

Security Work Authorizations (SWA) are agreements made with the Federal Protective
Service, Immigration and Customs Enforcement to supply security services above the
building security survey recommendation or considered to be a NARA specific
requirement for GSA facilities leased by NARA. NARA Interim Guidance 402-10
provides guidance for the use of SWA’s. New SWA’s are created by the NARA unit
requesting the services. GSA and FPS will usually provide the NARA unit with a project
estimate.



                                        Page 4
                     National Archives and Records Administration
                                                           OIG Audit Report No. 14-07


Payments for SWA’s are paid using IPAC’s. For SWA’s, BCA completes the approval
form and then requests that the Administrative Officers or the Point-of-Contact verify
that the charges are correct via e-mail.

Other federal agencies provide specific services through an alternate procurement
mechanism known as an “Interagency Agreement” or IAA. Quick, simple, flexible and
easy to prepare, an IAA is the convenient and easy way for Federal organizations to
procure services from other Federal agencies. NARA also enters into interagency
agreements with other Federal agencies for various services such as scanning services,
payroll services, personnel services and web casting services.

FY 2012 and FY 2011 Rental Payments to Federal Agencies (budget object code 2533)
were $7,886,775 and $7,549,262, respectively. These amounts are made up of mainly
FPS security payments based on rentable square feet from GSA Occupancy Agreements,
some SWA's and one IAA. We included other FY 2012 Security Work Authorizations
and interagency agreements with other Federal agencies in our population from budget
object code 2531, Services of Other Agencies and budget object code 2611, General
Supplies for $5,295,948.

                                  FY 2012              FY 2011
FPS for GSA Occupancy Agreements $7,878,750           $7,351,108
Security Work Authorizations       $649,331              $78,354
Inter-Agency Agreements          $4,654,642             $119,800
Total                           $13,182,723           $7,549,262




                                        Page 5
                     National Archives and Records Administration
                                                             OIG Audit Report No. 14-07


Objectives, Scope, Methodology

The overall objective of this audit was to evaluate NARA’s payments to Federal
agencies, other than GSA, to ensure obligations are appropriate, the agreements are in
NARA’s best interest and NARA is receiving services in accordance with the
agreements.

To accomplish our objective, we interviewed key NARA personnel from the Office of
Business Support Services, and various points of contact on agreements. We reviewed
DHS Security Bills, Interagency Agreements, Security Work Authorizations, GSA
Occupancy Agreements and other documentation provided by NARA. The criteria
assessed and used during our audit included: the Homeland Security Act of 2002; Code of
Federal Regulations (CFR) Title 41, Part 102 -85, Pricing Policy for Occupancy in GSA
Space; Federal Acquisitions Regulation (FAR), Subpart 17.5, Interagency Acquisitions;
and NARA Interim Guidance 402-10, Reimbursable Work Authorizations and Security
Work Authorizations.

We selected a judgmental sample of 14 out of 43agreements including six SWA’s, two
FPS charges for GSA owned or leased buildings, and six IAA’s.

Our audit work was performed at Archives II between January 2013 and February 2014.
The completion of this audit was delayed due to other assignments with higher priority.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                        Page 6
                     National Archives and Records Administration
                                                            OIG Audit Report No. 14-07


Audit Results

Management of Occupancy Agreements that Support Basic Security
Charges

NARA authorized payment of FPS invoices without verifying that the amounts were
consistent with supporting documentation. This occurred because NARA did not verify
that the square footage on FPS invoices 1 matched the square footage listed in the
supporting GSA occupancy agreement 2 when authorizing payment of FPS invoices.
General Accountability Office (GAO), Standards for Internal Control in the Federal
Government states that “All transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination.” As a
result, NARA could be either over or under billed.

Basic security is required on all GSA controlled properties where the FPS provides
security services. The annual basic security rate is set by OMB on a per square-foot
basis. FPS invoices are based on the GSA occupancy agreements rentable square feet
and the annual basic security rate. GSA’s occupancy agreement is a written agreement
which describes the financial terms and conditions under which a customer agency
occupies GSA-controlled space.

The rentable square feet on GSA’s occupancy agreement should match the rentable
square feet on the FPS invoice. We reviewed 37 GSA occupancy agreements, comparing
the rentable space from the occupancy agreement to the square feet on the FPS invoice.
The square footage on 11 out of the 37 occupancy agreements reviewed did not agree
with the square footage on the FPS bills. Although management had identified
discrepancies in the past, no individual or organization was assigned responsibility to
follow-up or coordinate with FPS.




1
    See Appendix A
2
    See Appendix B

                                        Page 7
                     National Archives and Records Administration
                                                                     OIG Audit Report No. 14-07


                         BASIC SECURITY CHARGES

                               Square Feet
                                 (charge        Rentable                                 Estimated
                               basis) from    Square Feet                   Annual        Annual
            Location            September      from GSA      Difference      Basic        Amount
                                   2012       Occupancy     (Overbilled)/   Security   (Overbilled)/
                               FPS Invoice    Agreement      Underbilled     Rate       Underbilled
1    San Bruno, CA.                 227,839       223,289          (4550)      $0.74     $ (3,367.00)
     Philadelphia, PA. - 900
2    Market St (See                 39,879      39,700.54       (178.46)       $0.74       $(132.06)
     Appendix A and B)
     Dayton, Ohio ­
3    Warehouse 4
                                   203,644     203,608.84         (35.16)      $0.74        $(26.02)
     Ft. Worth, TX ­
4    Warehouse 9
                                    84,493      84,468.10          (24.9)      $0.74        $(18.43)

5    Albuquerque, NM                   341           336              (5)      $0.74          (3.70)
     Laguna Niguel, CA. ­
6    24000 Avila Rd.
                                     1,592       1,588.81          (3.19)      $0.74         $(2.36)
     Houston, TX-GT
7    Mickey Leland FB
                                       384         391.16           7.16       $0.74           $5.30
     Washington, D.C. ­
8    800 N. Capitol
                                    19,146         19,217             71       $0.74          $52.54
     Dunn Road, St. Louis
9    MO (1 Archive Dr)
                                   438,922     441,791.60        2,869.6       $0.74       $2,123.50
     Overland, Missouri ­
10   FRC Bldg 100
                                     8,407      11,367.03       2,960.03       $0.74     $ 2,190.42

11   Broomfield, CO                161,730     185,989.50       24,259.5       $0.74    $ 17,952.03

                                                               Estimated Net Amount     $ 18,774.23

However, NARA’s Office of Budget did not verify the FPS invoice to the applicable
GSA occupancy agreement when authorizing payment. NARA’s Office of Budget tracks
changes on FPS invoices month to month, but no NARA organization is assigned
responsibility to ensure the square footage used to calculate the basic security charges
actually matches the square footage on their copy of the GSA occupancy agreements.
Management had no specific reason for not reconciling basic security charges, but
NARA’s Storage Coordination and Logistics Staff, who manage GSA-owned/leased
space and Office of Budget, are committed to work to ensure the square footage and basic
security charges are accurate.

NARA was under-billed approximately $18,774.23 in FY 2012 from those 11 GSA
occupancy agreements that did not match the FPS bill. DHS said NARA was mainly
under-billed because of a new guard contract coming on board and rate changes.
However, in future years, NARA could be overbilled if charges are not monitored more
closely.



                                            Page 8
                         National Archives and Records Administration
                                                               OIG Audit Report No. 14-07


Management of Building-Specific Security Charges
NARA authorized an estimated $4 million in FY 2012 payments for building-specific
security charges without supporting documentation detailing what these services are and
without knowing if the correct amount was charged. This occurred because NARA has
not successfully coordinated with DHS to ensure charges are adequately documented and
explained to assure NARA is adequately billed. GAO’s Standards for Internal Control in
the Federal Government state that “All transactions and other significant events need to
be clearly documented, and the documentation should be readily available for
examination.” As a result, NARA is approving invoices for unknown services. NARA
could be billed for services not rendered if not monitored more closely.

Building-specific security charges are for items funded by FPS, including Protective
Security Officers and security equipment (X-ray Machines, Magnetometers, Closed –
Circuit Television Systems and Cameras, Intrusion Detection Systems and Duress Alarm
Systems) which service the whole facility. NARA does not know what building-specific
security services are included in the building-specific security charges on the FPS bills, or
how the costs are determined on buildings owned or leased by GSA and paid to FPS via
the monthly DHS bill.

 A NARA representative said FPS used to provide estimates every year for building
specific security charges, but FPS stopping providing estimates. However, we contacted
a DHS point of contact on a FPS invoice and were able to get examples of what made up
building-specific security charges and what was charged each month. These charges
matched NARA records. NARA has not successfully coordinated with DHS to ensure
charges are adequately documented and explained to assure NARA is adequately billed.
As a result, NARA could be billed for services not rendered if not monitored more
closely.

Management of Security Work Authorizations
The point of contact on one SWA could not verify the individual dates guard services were
requested or when these services were performed. That information should be used to
support the authorization to pay the invoice for these services. This occurred because emails
requesting guards for special dates were not available, and many were lost in the transition to
Google mail. GAO’s Standards for Internal Control in the Federal Government states that
“All transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination.” NARA could be billed for
services not rendered if not monitored more closely.

Our review found contract NAR-12-SWA-NPRC-005 documented the need for
additional security guards on November 17, 2011 and on four additional dates which
would be determined later. There was no documentation supporting the request for
additional guard service on these four other dates. However, NARA paid for these
services.


                                         Page 9
                      National Archives and Records Administration
                                                             OIG Audit Report No. 14-07


The point of contact on the SWA said emails requesting guards for special dates were not
available and many were lost in the transition to Google. The point of contact does
remember seeing documentation supporting the request for guard services. In addition,
NARA Interim Guidance 402-10, Reimbursable Work Authorizations and Security Work
Authorizations, does not address documentation requirements for authorizations with
multiple dates. The point of contact on the SWA will implement a log requiring the
physical security specialist, and himself, to complete when requesting additional guard
service.

It is ineffective to manage any type of procurement for services without details of when
services occurred. NARA could be billed for services not rendered if not monitored more
closely.

Recommendations

We recommend the Executive for Business Support Services:

   1.	 Periodically compare the square footage on FPS invoices to GSA Occupancy
       Agreements to ensure accuracy of basic security charges.

   2.	 Work with GSA and FPS to resolve any differences in rentable square footage to
       ensure the correct square footage is used in calculating basic security charges on
       FPS bills.

   3.	 Work with DHS in understanding what services are included in the building-
       specific security charges and how the monthly charges are calculated for each
       facility owned or leased by GSA. NARA should compare and reconcile their
       understanding of building specific security charges to the FPS bill to ensure
       accuracy of building-specific security charges.

   4.	 Update NARA Interim Guidance 402-10, Reimbursable Work Authorizations and
       Security Work Authorizations to provide guidance on what controls are needed
       over procurement vehicles, such as an SWA covering multiple events, and what
       supporting documentation is needed to ensure charges billed are correct. At a
       minimum, all dates, requested services and services provided should be
       documented.


Management Response

Management concurs with all four recommendations in this audit, and will address them
further in an action plan.




                                        Page 10
                     National Archives and Records Administration
                                                 OIG Audit Report No. 14-07



Appendix A –Example of a FPS Invoice




                               Page 11

            National Archives and Records Administration
                                                                                      OIG Audit Report No. 14-07 



Appendix B – Example of a GSA Occupancy Agreement

                                   Signed Agreement and Financial Summary


                                          OCCUPANCY AGREEMENT
                                               ·       Between
                   NATIONAL ARCHIVES AND RECORDS ADMINISTRATION (8800)
                                                         And
                                  GENERAL SERVICES AD~TION




  NATIONAL ARCHIVES AND RECORDS ADMINISTRATION (Code 8800) will ocrupy 29,355.00
  usable ( 39,673.76 rentable) square feet of space and 0 structured parking spaces and 0 surface parking
  spaces at ROBT N C NIX FB USPO (PA0143) located at 900 MARKET STRf'&T, PHILADELPHIA, P.4,,
  for a period of 60 months commencing on or about ll/0112008.                                ·         : { 39,673.76
  The agency share of Joint Use Spaces is 26.78 rentable square feet.                                   . . +   26.78

  NATIONAL ARCHIVES AND RECORDS ADMINISTRATION (Code 8800) will pay the General , .                                  39•700·54
  Services Administration rent in accordance with the attached page(s). The rental will be adjusted annually
  for operating cost.

   NATIONAL ARCHIVES .AND RECORDS ADMINISTRATION (Code 8800) will pay the General
   Services Administration additional rent for prorated share of joint use space associated with this location, if
   any.
                                                           \
   Additional/reduced services are shown on the attached Occupancy Agreement Financial Summary.
  Mandatory Clau~
  Federal Specillc Mandatory Clauses
  Alterations by Tenant Agency
  The tenant agency agrees tbat it will undertake no alterations to the real property governed by this OA
  without prior approval from PBS.                                               .
  Building Services
  Building services to be provided are outlined in the PBS Real Property Customer Guide. Additional or
  upgraded services beyond those identified are provided by PBS on a reimbursable basis. Charges for certain
  recurring reimbursable services may be billed on the PBS Bill. Recuning charges for overtime utilities,
  enhanced custodial services, mechanical O&M HVAC, mechanical O&M Other and additional guard
 services are eligible for billing on the PBS Bill provided the tenant agency has been designated as a
  "participating agency". The charges must be initiated by th~ tenant agency and renewed annually. The
 recuaing RWA processing fee will be assessed against each service billed..          :1
 Federal Construction
 In the case of Federal constJruction, the parties agree that PBS is responsible for providing the funds
 necessary to acquire land (if appropriate), design and construct-the building shell, and fund the tenant
 agency's tenant improvement allowance. The tenant agency is responsible for any tenant improvement costs
 in excess of the tenant improvement allowance. The parties further agree that savings or cost over-runs on
 the acquisition of land or the design and construction of building shell will not result in increases or
 decreases in the tenant allowance amount, except in the case of prospecrus level projects, where bids for the
 construction of the shell are over the approved budget. In this case, it is permissible to lower the tenant
 allowance in order to increase the shell budget, but only with approval of the tenant.agency. The tenant
 agency can appeal to the PBS asset manager in cases in which the agency's assigned tenant improvement




                                               Page 12

                            National Archives and Records Administration
                                                  OIG Audit Report No. 14-07


Appendix C - Acronyms and Abbreviations

CFR     Code of Federal Regulations
DHS     Department of Homeland Security
FAR     Federal Acquisition Regulations
FPS     Federal Protective Services
FY      Fiscal Year
GAO     General Accountability Office
GSA     General Services Administration
IAA     Interagency Agreement
IPAC    Intra-Governmental Payment and Collection System
NARA    National Archives and Records Administration
OIG     Office of Inspector General
OMB     Office of Management and Budget
RWA     Reimbursable Work Authorization
SWA     Security Work Authorization




                                Page 13
             National Archives and Records Administration
                                                                                OIG Audit Report No. 14-07 



Appendix D – Management Comments





      NATIONAL
      ARCHIVES



          Date:
                                     UAR 31,2014
          To:                    James Springs, Acting Inspector General
          From:                  David S. Ferriera, ArChivist of the United States
          Subject:     OIG Revised Draft Audit 1+07, Audit of NARA's Payments to Federal
          Agencies (Excluding GSA)




    lllank you for ltle opportunity to provide comments on ltlls revised draft report. We
    appreciate your willingness to wor1< wiltl us to d arify language in ltlis report.

    We concur with all four recommendations in this audit, and we will address ltlem further in
    our action plan.


   ~)J~
    DAVID S. FERRIERO
    ArChivist of the United States




    NATI ONAl. ARCUIVU an ,{
    !\(CORDS ADM I N I:. TitA liON

        3 M) I AO U rHI R(,)A()

    COl, I ~(;( I'Ait.t:. MO 207.f0.60lll
            wll•w, 4tO:Ai ~U .$;JV




                                               Page 14

                            National Archives and Records Administration
                                                             OIG Audit Report No. 14-07




Appendix E - Report Distribution List

David S. Ferriero, Archivist of the United States (N)

Jay Bosanko, Chief Operating Officer (C)

Chuck Piercy, Executive for Business Support Services (B)

Micah Cheatham, Chief Financial Officer (BC)

Mary Drak, Performance and Accountability Staff (CP)





                                       Page 15
                    National Archives and Records Administration
